                                              SINGLE AUDIT
                                              QUALITY CONTROL REVIEW


Office of Inspector General—Office of Audit




                                              QUALITY CONTROL REVIEW:
                                              SINGLE AUDIT OF THE SEATTLE-KING
                                              COUNTY WORKFORCE DEVELOPMENT
                                              COUNCIL AUDITOR’S REPORTS AND
                                              FINANCIAL STATEMENTS FOR THE YEAR
                                              ENDED JUNE 30, 2005




                                                             Date Issued:   August 8, 2008
                                                             Report Number: 24-08-007-03-390
U.S. Department of Labor                 Office of Inspector General
                                         Washington, DC 20210




                        Assistant Inspector General’s Report

Ms. Kris Stadelman
Chief Executive Officer
Seattle-King County Workforce Development Council
Suite 250
2003 Western Avenue
Seattle, WA 98121

Dear Ms. Stadelman:

The purpose of this report is to formally advise you of the results of a Quality Control
Review (QCR) the U.S. Department of Labor (DOL), Office of Inspector General (OIG),
conducted of the following audit completed by Francis and Company, PLLC (the Firm),
under the Federal Single Audit Act and Office of Management and Budget (OMB)
Circular A-133 (A-133):

      Single Audit of the Seattle-King County Workforce Development Council
      (WDC) Auditor’s Reports and Financial Statements for the year ended
      June 30, 2005

The objectives of the QCR were to determine whether: (1) the audit was conducted in
accordance with applicable standards and met the single audit requirements; (2) the
Firm needed to perform any additional work related to the audit; and (3) the Firm
needed to revise its audit procedures to improve the quality of future audits.

Our review included the following major programs:

                                                       Catalog of Federal Domestic
                    Program                            Assistance (CFDA) Number
                                                       17.258 (WIA Adult)
 Workforce Investment Act (WIA) Cluster                17.259 (WIA Youth)
                                                       17.260 (WIA Dislocated Workers)
 H-1B Skills Training Program                          17.261
 Youth Opportunity                                     17.263

We determined that the audit work performed was acceptable and met the requirements
of the Single Audit Act and A-133. No additional work is required related to the audit we
reviewed. However, we noted issues requiring management’s attention to improve the
quality of future audits. Specifically, the Firm did not: (1) accurately report the amount
used to determine high dollar programs and (2) report internal control deficiencies in

                                                                            Quality Control Review
                                                                          Seattle-King County WDC
                                                                  Report Number: 24-08-007-03-390
                                      U.S. Department of Labor – Office of Inspector General


accordance with Generally Accepted Government Auditing Standards (GAGAS).
Details on the results of our review are provided in the Enclosure.

Sincerely,




Elliot P. Lewis
Assistant Inspector General
 for Audit

Enclosure

cc: Horace C. Francis, Francis and Company, PLLC

   Edward J. Donahue, Jr., Division of Policy, Review, and Resolution,
    Employment and Training Administration




                                               2                    Quality Control Review
                                                                  Seattle-King County WDC
                                                          Report Number: 24-08-007-03-390
                                 U.S. Department of Labor – Office of Inspector General


                                                                          Enclosure

                           Quality Control Review:
 Single Audit of the Seattle-King County Workforce Development Council
               Auditor’s Reports and Financial Statements
                      for the year ended June 30, 2005
                              (24-08-007-03-390)

Introduction

The Single Audit Act of 1984, as amended by the Single Audit Act Amendments
of 1996, created a single organization-wide financial and compliance audit for
state and local governments, colleges, universities, and not-for-profit
organizations that expend Federal funds equal to or greater than $300,000 in any
fiscal year ($500,000 for fiscal years ending after December 31, 2003).

On October 23, 2005, Francis and Company issued a single audit report on the
financial statements of the Seattle-King County Workforce Development Council
as of June 30, 2005.

We performed a QCR of the above referenced audit. Our review included the
following major programs:

                                                 Catalog of Federal Domestic
                   Program                       Assistance (CFDA) Number
                                                 17.258 (WIA Adult)
Workforce Investment Act (WIA) Cluster           17.259 (WIA Youth)
                                                 17.260 (WIA Dislocated Workers)
H-1B Skills Training Program                     17.261
Youth Opportunity                                17.263

Objectives

Our objectives were to determine whether: (1) the audit was conducted in
accordance with applicable standards and met the single audit requirements; (2)
the Firm needed to perform any additional work related to the audit; and (3) the
Firm needed to revise its audit procedures to improve the quality of future audits.

Results

We determined that the audit work performed was acceptable and met the
requirements of the Single Audit Act and A-133. No additional work is required
related to the audit we reviewed. However, we noted issues requiring
management’s attention to improve the quality of future audits. Specifically, the


                                          3                    Quality Control Review
                                                             Seattle-King County WDC
                                                     Report Number: 24-08-007-03-390
                                 U.S. Department of Labor – Office of Inspector General


Firm did not: (1) accurately report the amount used to determine high dollar
programs and (2) report internal control deficiencies in accordance with GAGAS.

Single Audit Requirements

1. Firm did not follow A-133 for reporting the Type A threshold

The Firm did not accurately report the threshold for valuing Type A programs.
Although the Firm correctly calculated the threshold as $791,930, it reported the
Type A threshold as $300,000 in the Schedule of Findings and Questioned Costs
and to the Federal Audit Clearinghouse. The Firm attributed the condition to an
oversight.

Federal Audit Clearinghouse Instructions require the auditor to report the
threshold amount used to determine Type A programs to the Federal Audit
Clearinghouse. A-133, Subpart C—Auditees, Section 320, Report submission,
states that the threshold is used in determining the programs to select for audit
and that is to be reported to the Federal Audit Clearinghouse. A-133, Subpart
E—Auditors, Section 505(d), Audit reporting, requires reporting the threshold in
the Schedule of Findings and Questioned Costs.

Although the incorrect reporting had no effect on the work performed by the Firm,
it resulted in incorrect information being maintained on a Federal database used
to analyze information from all single audits.

Reporting

2. Firm did not follow GAGAS for reporting deficiencies in internal controls

The Firm did not report internal control deficiencies in accordance with GAGAS.
The audit documentation inferred the Firm verbally reported certain internal
control deficiencies pertaining to subcontractor accruals, bank accounts, and
petty cash. However, the audit documentation did not contain evidence of when
or to whom the deficiencies were reported to management.

The Firm stated it believed the conditions noted were inconsequential and did not
warrant reporting in a management letter. The Firm further informed us it
verbally conveyed the information to the Chief Executive Officer, Chief Operating
Officer, and Controller on November 28, 2005.

The 2003 revision of Generally Accepted Government Auditing Standards,
paragraph 5.16, states:

      When auditors detect deficiencies in internal control that are not
      reportable conditions, they should communicate those deficiencies

                                          4                    Quality Control Review
                                                             Seattle-King County WDC
                                                     Report Number: 24-08-007-03-390
                                 U.S. Department of Labor – Office of Inspector General


      separately in a management letter to officials of the audited entity
      unless the deficiencies are clearly inconsequential considering both
      quantitative and qualitative factors . . . Auditors should use their
      professional judgment in deciding whether or how to communicate
      to officials of the audited entity deficiencies in internal control that
      are clearly inconsequential. Auditors should include in their audit
      documentation evidence of all communications to officials of the
      audited entity about deficiencies in internal control found during the
      audit.

Since the Firm did not document to whom or when it communicated the internal
control deficiencies, the reporting requirements of GAGAS were not met.

Recommendations

We recommend the Firm:

   1. Correct the information recorded in the Federal Audit Clearinghouse and
      notify the users of the Schedule of Findings and Questioned Costs of the
      correct amount of the threshold.

   2. Report internal control deficiencies and include in the audit documentation
      to whom and when it communicated the internal control deficiencies in
      order to comply with GAGAS reporting requirements on future A-133
      engagements.


Firm’s Response

In response to the recommendations, the Firm agreed the lower threshold
amount was reported due to an oversight and stated it has corrected the amount
on the Federal Audit Clearinghouse database. The Firm also considered
possible users of the report, but did not consider any notification was necessary.
Regarding internal control reporting deficiencies, the Firm responded that the
circumstances relating to the items in question were judged during the audit to be
inconsequential, but they were verbally communicated to management. The
Firm said it documented the communication in its working papers but did not
identify the management personnel involved. The Firm agreed to ensure it
includes more complete documentation of verbal communication in the work
papers. See Appendix D for the agency’s complete response to our draft report.




                                          5                    Quality Control Review
                                                             Seattle-King County WDC
                                                     Report Number: 24-08-007-03-390
                              U.S. Department of Labor – Office of Inspector General


OIG’s Conclusion

Based on the Firm’s response, we consider recommendation 2 to be closed.
Recommendation 1 is resolved and will be closed upon receipt of documentation
to support that the Federal Audit Clearinghouse database has been properly
updated.




                                       6                    Quality Control Review
                                                          Seattle-King County WDC
                                                  Report Number: 24-08-007-03-390
             U.S. Department of Labor – Office of Inspector General




Appendices




                      7                    Quality Control Review
                                         Seattle-King County WDC
                                 Report Number: 24-08-007-03-390
        U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                 8                    Quality Control Review
                                    Seattle-King County WDC
                            Report Number: 24-08-007-03-390
                                U.S. Department of Labor – Office of Inspector General


                                                                        Appendix A
Background

The Single Audit Act of 1984 established consistent and uniform entity-wide audit
requirements for state and local governments receiving Federal financial
assistance. The single audit is the primary mechanism used by Federal agencies
to ensure accountability for Federal awards. Audits performed under the Single
Audit Act are intended to satisfy all Federal agencies providing assistance to the
entity. The act was amended in 1996 by Public Law 104-156, raising the threshold
for single audit to $300,000 in Federal assistance. The June 27, 2003, revision to
A-133 raised this threshold to $500,000 for fiscal years ending after
December 31, 2003.

QCRs are performed to provide evidence of the reliability of single audits to the
auditors of Federal agency financial statements, such as those required by the
Chief Financial Officers Act, those responsible for the programs, and others. We
performed a QCR of the single audit of the Seattle-King County Workforce
Development Council for the year ended June 30, 2005, completed by Francis
and Company, PLLC.

The Seattle-King Workforce Development Council began operating on
July 1, 2000, as a nonprofit corporation in the State of Washington. The Council
replaced the Seattle King County Private Industrial Council, under the Workforce
Investment Act of 1998, as the Department of Labor pass-through agency to
receive the employment and training funds for the Seattle-King County area. The
Council is dedicated to producing a competitive workforce and a competitive local
economy. The Council serves as a research and development center for
workforce issues, sharing its expertise with the community and leading
partnerships. The Council invests and participates in strategic initiatives to
strengthen the economy and ensure that residents have the opportunity to
achieve success. For the year ending June 30, 2005, the Council expended
about $26.4 million in Federal awards, of which $25.1 million was attributable to
DOL.




                                         9                    Quality Control Review
                                                            Seattle-King County WDC
                                                    Report Number: 24-08-007-03-390
        U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                 10                   Quality Control Review
                                    Seattle-King County WDC
                            Report Number: 24-08-007-03-390
                                U.S. Department of Labor – Office of Inspector General


                                                                       Appendix B
Objectives, Scope, Methodology and Criteria

Objectives

Our objectives were to determine whether:

   1. the audit was conducted in accordance with applicable standards and met
      the single audit requirements;

   2. the Firm needed to perform any additional work related to the audit; and

   3. the Firm needed to revise its audit procedures to improve the quality of
      future audits.

Scope

We performed a QCR of the single audit of the Seattle-King County Workforce
Development Council for the year ended June 30, 2005, at the offices of Francis
and Company, PLLC, located at 701 Dexter Avenue North, Suite 404, Seattle,
Washington, from April 28, 2008 to May 2, 2008.

Our review included the following major programs:

                                                Catalog of Federal Domestic
                  Program                       Assistance (CFDA) Number
                                                17.258 (WIA Adult)
Workforce Investment Act (WIA) Cluster          17.259 (WIA Youth)
                                                17.260 (WIA Dislocated Workers)
H-1B Skills Training Program                    17.261
Youth Opportunity                               17.263

Methodology

Using the President’s Council on Integrity and Efficiency Uniform QCR Guide for
A-133 Audits, we reviewed audit documentation and held discussions with the
Firm’s partners and audit manager to accomplish the required steps. The Guide
was developed to test for compliance with GAGAS general and fieldwork
standards and A-133 requirements. Specifically, we reviewed:
   • Competence
   • Independence
   • Professional Judgment
   • Quality Control
   • Planning and Supervision

                                         11                   Quality Control Review
                                                            Seattle-King County WDC
                                                    Report Number: 24-08-007-03-390
                               U.S. Department of Labor – Office of Inspector General

   •   Management Representations
   •   Litigation, Claims and Assessments
   •   Possible Fraud or Illegal Acts
   •   Determination of Major Programs
   •   Schedule of Expenditures of Federal Awards
   •   Audit Follow-up
   •   Reporting
   •   Internal Control Over Major Programs
   •   Data Collection Form

Criteria

Generally Accepted Government Auditing Standards

Guidance on GAGAS Requirements for Continuing Professional Education

Single Audit Act of 1984

Single Audit Act Amendments of 1996

OMB Circular A-133




                                        12                   Quality Control Review
                                                           Seattle-King County WDC
                                                   Report Number: 24-08-007-03-390
                             U.S. Department of Labor – Office of Inspector General


                                                                     Appendix C
Acronyms and Abbreviations


  A-133    Office of Management and Budget Circular A-133

  CFDA     Catalog of Federal Domestic Assistance

  DOL      Department of Labor

  GAGAS Generally Accepted Government Auditing Standards

  OIG      Office of Inspector General

  OMB      Office of Management and Budget

  QCR      Quality Control Review

  WDC      Workforce Development Council

  WIA      Workforce Investment Act




                                         13                Quality Control Review
                                                         Seattle-King County WDC
                                                 Report Number: 24-08-007-03-390
        U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                 14                   Quality Control Review
                                    Seattle-King County WDC
                            Report Number: 24-08-007-03-390
                           U.S. Department of Labor – Office of Inspector General


                                                                   Appendix D

Independent Public Accountant Response To Draft Report




                                    15                   Quality Control Review
                                                       Seattle-King County WDC
                                               Report Number: 24-08-007-03-390
U.S. Department of Labor – Office of Inspector General




         16                   Quality Control Review
                            Seattle-King County WDC
                    Report Number: 24-08-007-03-390
